No. 18A1257
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, APPLICANT
v.
RICHARD D. COLLINS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ARMED FORCES, via email and first-class mail, postage
prepaid, this 28th day of June, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 28, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST

WILLIAM E. CASSARA
PO Box 2688
Evans, GA 30809
706-860-5769
bill@williamcassara.com
MARK J. SCHWARTZ, Major, USAF
Appellate Defense Counsel
Air Force Appellate Defense Division
1500 W Perimeter Road, Suite 1100
JB Andrews, MD 20762
(240) 612-4770
mark.j.schwartz7.mil@mail.mil

